TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Additional Security Controls Are Needed to
                  Protect the Automated Collection System



                                          March 30, 2010

                              Reference Number: 2010-20-028




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 30, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Additional Security Controls Are Needed to
                                 Protect the Automated Collection System (Audit # 200920012)

 This report presents the results of our review of whether the Internal Revenue Service (IRS) has
 implemented access, audit trail, and configuration management 1 controls to secure the
 Automated Collection System (ACS). This audit addresses the IRS major management
 challenge of Security of information systems. The audit was included in the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2009 Annual Audit Plan and was part of our
 statutory requirement to annually review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 The ACS is used to perform critical IRS processes such as collecting tax revenues and helping
 taxpayers resolve their tax issues. The IRS needs to implement additional security controls to
 protect the ACS and sensitive taxpayer data. The lack of complete security controls increases the
 risks that taxpayer data could be stolen or critical computer operations could be disrupted.

 Synopsis
 The ACS is a telephone contact system used by IRS employees to collect unpaid taxes and
 secure tax returns from delinquent taxpayers who have not complied with previous collection
 notices. Specifically, the ACS allows employees to receive and initiate telephone calls; access

 1
     See Appendix IV for a glossary of terms.
                             Additional Security Controls Are Needed to
                             Protect the Automated Collection System



taxpayers’ account information; issue a variety of letter correspondence to taxpayers; review
taxpayers’ case histories; and issue notices, liens, or levies to resolve cases. The ACS plays a
vital role in the IRS collection program. In Fiscal Year 2008, the ACS contributed to the
collection of $4.8 billion (17 percent) of the $27.5 billion collected by the IRS Small
Business/Self-Employed and Wage and Investment Divisions.
Because employees use the ACS to access sensitive taxpayer information, the IRS must
implement strict access controls to limit employees’ access privileges to only those privileges
needed to perform assigned duties. IRS procedures also require that computer systems be
configured to create audit trails to identify inappropriate and suspicious activities on the system.
We found the IRS implemented several access controls. For example, the IRS configured the
ACS to automatically disable user accounts that are inactive for 45 calendar days and delete user
accounts that are inactive for 90 calendar days, separated key duties among ACS personnel to
limit conflicts of interest, configured the ACS to automatically lock out users after three
unsuccessful logon attempts, and implemented a session lockout control on employee
workstations to prevent unauthorized users from gaining access to the ACS when the
workstations are left unattended for a designated time period. However, the following required
access controls have not been implemented.
   1. None of the managers we interviewed perform a periodic review of their employees’
      access privileges to ensure the privileges are adequately restricted. The risk of users
      gaining unauthorized privileges on the ACS increases when managers do not periodically
      review their employees’ access privileges. In addition, managers are not timely removing
      their employees’ user account when the employee transfers to another IRS function.
      When access privileges are not promptly deleted from the system, opportunities exist for
      the employee to inappropriately access and modify taxpayer data.
   2. Six of our sampled 109 employees’ system privileges were not restricted to only those
      privileges needed to perform assigned duties. When users are granted excessive access
      privileges, the risk increases for malicious actions and unauthorized disclosure of
      taxpayer data. We also found some managers did not document their approval of their
      employees’ access privileges in the IRS’ Online 5081 system. When managers do not
      document their approval of employees’ access privileges, there is an increased risk of
      employees obtaining greater privileges than needed.
IRS procedures also require the use of audit trails to detect unauthorized accesses and suspicious
activities on computer systems. However, the IRS is not capturing all of the required auditable
events in ACS audit trails. The IRS informed us that enabling all required auditing events would
negatively affect system performance. In addition, the audit trail data were not protected from
unauthorized modification. The IRS reported that it took corrective actions during our fieldwork
and eliminated unneeded audit trail access privileges for 58 employees.


                                                                                                   2
                                  Additional Security Controls Are Needed to
                                  Protect the Automated Collection System



In addition to implementing access and audit trail controls, the IRS must implement
configuration management controls to manage the effects of changes in configurations on the
ACS. Configuration management includes the management of security features and assurances
through control of the changes made to hardware, software, and documentation throughout the
life cycle of the system. The IRS developed a number of required configuration management
policies, procedures, and guidance and established configuration control boards. It also uses an
automated configuration policy checker program on a monthly basis to evaluate the ACSWeb 2
server configuration settings. However, basic configuration management controls have not been
implemented.
      1. The IRS had not developed an overall configuration management plan for the ACS.
      2. The IRS had not documented and maintained a complete, accurate inventory of the ACS
         hardware, software, and document configuration items.
      3. Changes to ACSWeb software configuration items are not properly documented, tested,
         and authorized.
The IRS did not timely correct high- and medium-risk system vulnerabilities that it identified on
the ACSWeb servers using the automated configuration policy checker program.

Recommendations
To improve access controls on the ACS, the Chief Technology Officer should: 1) make the
current efforts to enhance or replace the Online 5081 system a top priority and 2) instruct the
Modernization and Information Technology Services organization’s ACS Applications
Development office to create call site procedures to clarify the capabilities of each user profile at
the Resource Access Control Facility (RACF®) and ACS application level. Also, the
Commissioner, Small Business/Self-Employed Division, should request that the ACS
Application Development office reinstate the ACS Security Maintenance Report that identifies
changes to employees’ access levels for the ACS application. Lastly, the Commissioners, Small
Business/Self-Employed and Wage and Investment Divisions, should: 1) instruct ACS managers
to review their employees access privileges on the RACF® and the ACS application during the
annual Online 5081 recertification process, 2) instruct ACS managers to remove users’ accounts
from the ACS when the users transfer to non-ACS functions, and 3) immediately review the
Online 5081 for all of their employees that need elevated RACF® privileges to ensure their
approval is documented in the Online 5081.




2
    The ACSWeb component provides a web interface that allows communication with the mainframe computers.
                                                                                                            3
                              Additional Security Controls Are Needed to
                              Protect the Automated Collection System



To improve configuration management on the ACS, the Chief Technology Officer should: 1) set
completion dates and prioritize the work needed to complete the high level and ACS
configuration management plans; 2) appoint an ACS configuration manager to oversee ACS
configuration management activities; 3) direct the ACS configuration manager to protect critical
ACS documentation by storing the documents in the DocIt system; 4) identify key software
configuration items, assign unique identifiers, and maintain the items in the ClearCase® system
to allow efficient monitoring; 5) ensure the IRS’ required change management procedures are
followed for all changes to the ACSWeb servers; and 6) establish criteria and completion dates
for addressing vulnerabilities found on servers and compare the results of monthly vulnerability
scans to verify that vulnerabilities are timely addressed.

Response
IRS management agreed with 10 of our 12 recommendations and stated that some corrective
actions have already been taken. The IRS disagreed with the wording of our recommendation
for the Chief Technology Officer to instruct the ACS Applications Development office to create
call site procedures and guidelines to clarify the capabilities of user profiles. The IRS stated the
Chief Technology Officer does not have this authority to direct the actions of business units.
However, the Chief Technology Officer agreed to work with the Director, Filing and Payment
Compliance, Small Business/Self-Employed Division, to create the call site procedures and to
clarify the capabilities of each user profile. The Director, Filing and Payment Compliance, will
ensure the user profile information is included in the appropriate call site training.
The IRS also disagreed with our recommendation to appoint an ACS configuration manager to
oversee key ACS configuration management activities. The IRS stated the Applications
Development ACS team is aligning with current configuration management procedures to
implement corrective actions related to software and documentation repositories, transmittal
procedures, and version control. Management’s complete response to the draft report is included
as Appendix VI.

Office of Audit Comment
We concur with the IRS’ corrective actions to update and clarify the ACS call site procedures for
users’ profiles and ensure user profile information is included in call site training, but we
disagree with the decision to not appoint an ACS configuration manager to oversee key ACS
configuration management activities, which could prevent the IRS from addressing the
weaknesses we reported. However, we believe the corrective actions to the other
11 recommendations will sufficiently mitigate this particular weakness. As such, no further
action is required at this time.



                                                                                                       4
                            Additional Security Controls Are Needed to
                            Protect the Automated Collection System



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
Assistant Inspector General for Audit (Security and Information Technology Services), at (202)
622-5894.




                                                                                                 5
                                       Additional Security Controls Are Needed to
                                       Protect the Automated Collection System




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Several Access Controls Have Been Implemented, but Additional
          Controls Are Needed for the Call Site Employees .......................................Page 3
                    Recommendations 1 through 3:.........................................Page 6

                    Recommendation 4:........................................................Page 7

                    Recommendation 5:........................................................Page 8

                    Recommendation 6:........................................................Page 9

          Audit Trail Controls for the Automated Collection System
          Were Not Operating Effectively ...................................................................Page 10
          Basic Configuration Management Practices Have Not Been
          Implemented to Protect the Automated Collection System..........................Page 11
                    Recommendations 7 and 8: ..............................................Page 13

                    Recommendations 9 and 10: ............................................Page 15

                    Recommendation 11: ......................................................Page 16

                    Recommendation 12: ......................................................Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Glossary of Terms................................................................Page 23
          Appendix V – Process to Obtain Access to
          the Automated Collection System ................................................................Page 26
          Appendix VI – Management’s Response to the Draft Report ......................Page 27
         Additional Security Controls Are Needed to
         Protect the Automated Collection System




               Abbreviations

ACS      Automated Collection System
IRS      Internal Revenue Service
OL5081   Online 5081
RACF®    Resource Access Control Facility
                                    Additional Security Controls Are Needed to
                                    Protect the Automated Collection System




                                               Background

The Automated Collection System (ACS) is a telephone contact system used by Internal
Revenue Service (IRS) employees to collect unpaid taxes and secure tax returns from delinquent
taxpayers who have not complied with previous collection notices. Specifically, the ACS allows
employees to receive and initiate telephone calls; access taxpayers’ account information; issue a
variety of letter correspondence to taxpayers; review
taxpayers’ case histories; and issue notices, liens, or
levies to resolve the cases. The ACS plays a vital role in        The ACS program collected
the IRS collection program. In Fiscal Year 2008, the            $4.7  billion in Fiscal Year 2008
ACS contributed to the collection of $4.8 billion               and  is critical to IRS collection
                                                                 and customer service efforts.
(17 percent) of the $27.5 billion by the IRS Small
Business/Self-Employed 1 and Wage and Investment
Divisions. In addition, each nonmanagerial ACS
employee collected an average $1.49 million in Fiscal Year 2007. The two IRS business units
that primarily use the ACS, the Small Business/Self-Employed and Wage and Investment
Divisions, listed the recovery of the ACS as a top priority in resuming critical IRS business
processes after a disaster or emergency incident.
The ACS is a three-tiered system. The first tier is the mainframe computerized inventory system
that controls and maintains the Integrated Data Retrieval System balance due and nonfiler cases
that are worked by ACS employees. The Integrated Data Retrieval System operates in the
computing centers in Memphis, Tennessee, and Martinsburg, West Virginia. The second tier of
the ACS includes the ACSWeb servers that are located in the computing center in
Memphis, Tennessee. The ACSWeb provides the web interface that allows communication with
the mainframe. The third tier includes the workstations that employees use to access the
ACSWeb servers and conduct collection activities.
The ACS is used by approximately 5,500 employees in 14 call sites around the nation. For many
taxpayers, a customer service representative in an ACS call site is the first personal contact with
the IRS. In order to do their job, these employees have access to a large amount of sensitive
taxpayer data on the ACS. These data include the taxpayer’s name; home address; date of birth;
telephone numbers; Taxpayer Identification Number; account information relating to tax
liabilities; information regarding liens, levies, assets, partnerships, and/or corporation names; and
the power of attorney’s personal information. ACS employees also have access to personal
information of a taxpayer’s spouse.



1
    See Appendix IV for a glossary of terms.
                                                                                              Page 1
                               Additional Security Controls Are Needed to
                               Protect the Automated Collection System



Federal legislation and IRS policy require that taxpayer information be protected from malicious
actions and unauthorized access or modification. In addition, the Federal Government has long
recognized that the greatest harm to computer systems has come from authorized individuals
engaged in improper activities, whether intentional or accidental. 2 Insider threats are often
disgruntled employees who believe the business, institution, or agency has treated them unfairly
and feel justified in taking malicious actions. To minimize these threats, the IRS developed
security controls to prevent, limit, and detect unauthorized access to its computer systems.
For example, access to systems should be based on the concept of “least privilege.” Least
privilege, which is one of the most basic principles for securing computer resources, means that
employees should be granted only those access rights and privileges that they need to perform
their duties. In addition, audit trail controls should be implemented to detect unlawful and
unauthorized activities on computer systems. The IRS is required to capture, analyze, and retain
audit trails. The IRS must also implement configuration management controls to establish and
maintain the integrity and reliability of ACS hardware, software, and documentation.
Configuration management is critical to manage the vulnerabilities of the ACS and reduce the
potential for exploitation by inside and outside hackers.
We focused this security review of the ACS on access, audit trail, and configuration management
controls. The review was performed at the call sites in Jacksonville, Florida; Philadelphia,
Pennsylvania; and Ogden, Utah; the computing centers in Memphis, Tennessee, and
Martinsburg, West Virginia; and the offices of the Modernization and Information Technology
Services organization and Small Business/Self-Employed Division in New Carrollton, Maryland,
and Washington, D.C. We performed this review during the period March through
September 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




2
 Office of Management and Budget Circular A-130, Management of Federal Information Resources,
Appendix III – Security of Federal Automated Information Resources, November 28, 2000.
                                                                                                Page 2
                                     Additional Security Controls Are Needed to
                                     Protect the Automated Collection System




                                         Results of Review

Several Access Controls Have Been Implemented, but Additional
Controls Are Needed for the Call Site Employees
The IRS uses the Resource Access Control Facility (RACF®) to control access to the mainframe
computer systems that maintain the balance due and nonfiler tax accounts that are worked by
ACS employees. A RACF® security administrator assigns the ACS employee one of three user
account profiles: operator, manager, or security representative. The manager and security
representative profiles allow elevated privileges. For example, the manager profile allows
managers to unlock employees’ accounts and the security representative profile allows security
representatives to unlock managers’ accounts. Users with a manager or security representative
profile also have the ability to use a query tool to view large amounts of sensitive taxpayer
collection data.
After granting an employee a RACF® profile, the RACF® security administrator notifies the
employee’s call site security representative, who assigns the employee one of eight profiles on
the ACS application. This second level of application-specific privileges controls the
employee’s activities on the ACS application to ensure the employee can perform only their
assigned duties. Examples of the ACS application profiles include National Office, 3 Master,
Supervisor, and Operator. An employee could have more than one profile on the ACS
application, and the ACS application profiles allow different privileges than those granted by the
RACF®.
To manage user access accounts on IRS computer systems, employees and managers are
required to use the Online 5081 (OL5081) system. Using the OL5081 system is the IRS’
approved method for adding, updating, and removing users and their system privileges on all IRS
systems. The ACS employee completes his or her access request on the system, and the manager
approves the request. If the employee needs elevated RACF privileges, the manager documents
his or her approval in the special instructions section of the employees’ OL5081 request.
However, the OL5081 does not document managerial approval of the ACS application
privileges. Appendix V provides an overview flowchart of the process to gain access to the
ACS.




3
    The National Office profile on the ACS application is the highest profile with the most elevated privileges.
                                                                                                                   Page 3
                            Additional Security Controls Are Needed to
                            Protect the Automated Collection System



Several access controls have been implemented
We identified several ACS access controls that were operating effectively.
   •   User accounts that have no activity for 45 calendar days are automatically disabled and
       user accounts that have no activity after 90 calendar days are automatically deleted.
       Disabling and deleting inactive accounts is crucial because the existence and availability
       of inactive accounts increase the risks of unauthorized access and disclosure of taxpayer
       data and the potential for malicious actions or misuse by individuals such as former
       employees who no longer have a need to know or others who may obtain access by
       posing as those individuals.
   •   Duties were properly separated to limit conflicts of interest among key ACS personnel.
       For example, security representatives at the call sites cannot change RACF® privileges,
       which are controlled by the RACF® security administrators in IRS campuses. Individuals
       who review the audit logs are separate from the individuals who enable user access and
       privileges. The 24 application developers, with detailed knowledge of the system design
       and vulnerabilities, do not have access to the ACS production system. In addition, ACS
       managers who authorize user access using the OL5081 system cannot add users to the
       system or enable access privileges.
   •   The automatic system lockout control properly locks out users after three unsuccessful
       logon attempts.
   •   A session lock control was implemented on ACS workstations to prevent unauthorized
       users from gaining access to information when the workstation is left unattended after a
       designated time period.
   •   An appropriate warning banner is displayed when accessing the ACS to warn all persons
       attempting to gain access to the system that the system and its information are for
       authorized use only and that attempts to illegally log on to the system could lead to
       criminal prosecution.
   •   Lastly, effective controls were implemented to prevent the existence of duplicate, default,
       and shared accounts on the ACS. These accounts offer unauthorized users additional
       opportunities to access the system and have been properly deleted from the system.
While the IRS has implemented several access controls, some required controls have not been
implemented. For instance, none of the managers we interviewed perform a periodic review of
their employees’ access privileges to ensure the employees have only those system privileges
needed to perform official duties, some managers did not timely remove their employees’ system
accounts when the employees transferred to other IRS functions, users’ system privileges were
not always based on the principle of least privilege, and some managers did not document their
approval of their employees’ RACF® privileges in the OL5081 system.

                                                                                           Page 4
                                 Additional Security Controls Are Needed to
                                 Protect the Automated Collection System



ACS managers were not reviewing their employees’ access privileges
ACS managers are required to annually review the appropriateness of their employees’ access
accounts and account privileges using the OL5081 system. Managers should ensure that users
need an ACS access account and that the related account privileges are based on the employees’
need to know and job duties. Our interviews with 14 managers in the Jacksonville call site and
27 managers in the Philadelphia call site determined that, although managers annually review
their employees on the OL5081 system to ensure the employees’ ACS accounts are still needed,
none of the managers review the OL5081 system to determine the appropriateness of the
employees’ access privileges.
During our interviews, ACS managers were not aware of the requirement to review their
employees’ RACF® or ACS application privileges. In addition, the OL5081 system was not
designed with the functionality needed to facilitate managers’ review of employees’ access
privileges. For example, during the annual OL5081 recertification process, the special
instructions section of the OL5081 system is not accessible from the recertification screens that
are displayed on managers’ computers. The OL5081 system also lacks the functionality to
document the employees’ ACS application privileges. Therefore, when a manager seeks to
increase an employee’s access privileges on the ACS application, the manager uses informal
methods such as email or verbal communication to notify the local call site security
representatives. These informal methods provide no official written record of manager
authorization for employee access privileges to the ACS application.
The IRS has initiated actions to resolve the lack of OL5081 system functionality. The
Modernization and Information Technology Services organization’s Cybersecurity office has
started gathering requirements to implement a new identity and access management 4 system,
which will address weaknesses with the OL5081 system. The requirements gathering work was
scheduled to be completed in December 2009. After that work is complete, the Cybersecurity
office will make recommendations to either enhance the OL5081 system or replace it with a
commercial off-the-shelf software product.
We also found that the IRS discontinued a critical ACS Security Maintenance Report for the
ACS application in Calendar Year 2002. This report identified changes to employees’ access
privileges on the ACS application. Managers could review the report to detect unauthorized
changes to employees’ privileges on the ACS application. However, the report was discontinued
because it was not considered useful. We believe the report could be used to manage ACS user
privileges.
The risk of users gaining unauthorized privileges on the ACS application increases when
managers do not periodically review their employees’ access privileges. A RACF® security


4
 Identity and access management is the gatekeeper mechanism that guards access to systems, applications, and data
and represents the first line of defense protecting the confidentiality, integrity, and availability of data.
                                                                                                          Page 5
                            Additional Security Controls Are Needed to
                            Protect the Automated Collection System



administrator or a call site security representative could give employees unauthorized elevated
privileges without being detected. The employees could then have inappropriate access to view
sensitive taxpayer data or make adjustments to collection cases.

Recommendations
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
request the Modernization and Information Technology Services organization’s ACS
Application Development office reinstate the ACS Security Maintenance Report that identifies
changes to employees’ access levels for the application. The report should be reviewed by
managers on a monthly basis to ensure that the employees have the correct access privileges on
the ACS application.
       Management’s Response: The IRS agreed with this recommendation. The Small
       Business/Self Employed Division will coordinate with ACS Modernization and
       Information Technology Services organization staff to reinstate this report. The ACS call
       sites have been instructed that this report will be reinstated and should be monitored on a
       monthly basis to ensure that employees have the proper privileges on the ACS.
Recommendation 2: The Commissioners, Small Business/Self-Employed and Wage and
Investment Divisions, should instruct ACS managers to review their employees’ RACF® access
privileges during the annual OL5081 recertification process to ensure the privileges are
authorized and follow the principle of least privilege. Until the IRS enhances or replaces the
OL5081 system, managers should also review their employees’ ACS access privileges on the
ACS application.
       Management’s Response: The IRS agreed with this recommendation. The Small
       Business/Self Employed and Wage and Investment Divisions are finalizing managerial
       guidance on reviewing and updating employee access privileges during the OL5081
       recertification process and on the ACS application. Additional collaboration is needed
       with all stakeholders prior to implementation.
Recommendation 3: The Chief Technology Officer should make the identity access
provisioning and management solution to enhance the OL5081 system or acquire a commercial
off-the-shelf software product a top priority. The new system should document managers’
access authorizations for the RACF® and ACS application.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Technology Officer has made identity and access management a priority. The Internal
       Identity and Access Management Program has been established as a governed program
       with allocated funding and dedicated staff. Phase 4 of the program will commence in
       December 2011.


                                                                                           Page 6
                                  Additional Security Controls Are Needed to
                                  Protect the Automated Collection System



Managers are not timely initiating actions to remove employees’ system access
when the employees no longer have a need to access the ACS
Although most of the 181 user accounts in our sample 5 were needed and being used by current
ACS employees, 4 of the user accounts belonged to former ACS employees who had transferred
to another IRS function. For all four cases, the managers had not taken action to remove the
users’ accounts. The accounts remained on the system for 1 to 3 months subsequent to the
employees’ transfers.
ACS managers are responsible for using the OL5081 system to promptly notify the officials
responsible for removing access accounts when an employee leaves the IRS, is reassigned to
other duties, is on extended leave, or is under disciplinary action. All accounts should be
removed within 1 week of an individual’s departure on friendly terms and immediately upon an
individual’s departure on unfriendly terms.
Managers we interviewed were unsure of the procedures regarding employee transfers and
removal of access privileges. Managers also mistakenly believed the gaining manager is
responsible for removing employee access accounts.

Recommendation
Recommendation 4: The Commissioners, Small Business/Self-Employed and Wage and
Investment Divisions, should instruct the ACS managers to remove users from the ACS by
updating the employee’s OL5081 profile if the employee leaves the IRS, is reassigned to a non-
ACS function, is on extended leave, or is under disciplinary actions.
          Management’s Response: The IRS agreed with this recommendation. The Wage
          and Investment and Small Business/Self-Employed Divisions are finalizing managerial
          guidance on reviewing and updating employee access privileges during the OL5081
          recertification and on the ACS application, and will issue a memorandum to all managers
          regarding current procedures.

Users’ privileges were not always based on the principle of least privilege
IRS procedures require employees’ system privileges be restricted to only those needed to
perform their duties. Most of the 109 employees in our sample with elevated privileges had the
appropriate level of access. However, six did not need their elevated privileges to perform their
duties.
      •   Four employees were managers who needed the security representative privileges on the
          RACF® to unlock users’ accounts. However, the managers were also given security
          representative privileges on the ACS application because the managers mistakenly

5
    See Appendix I for sample methodology.
                                                                                           Page 7
                             Additional Security Controls Are Needed to
                             Protect the Automated Collection System



       thought the elevated privileges on the RACF® require corresponding privileges on the
       ACS application. We believe the managers gained the unneeded excessive privileges on
       the ACS application due to the lack of written procedures or guidelines explaining the
       differences between RACF® and ACS application profiles.
   •   Two employees with manager privileges on the RACF® were not authorized to have
       them. One of the employees also had manager privileges on the ACS application. The
       employees’ managers informed us the employees’ prior managers granted the employees
       elevated privileges for a temporary work detail. However, when the detail was over, the
       privileges were not revoked.
The security representative privileges given to the above four managers on the ACS application
provided the managers with elevated privileges such as the ability to increase the privileges of
other users. The manager privileges on the RACF® that were given to the two employees
included the ability to perform management queries to view large amounts of sensitive tax
collection data. When users are granted access permissions beyond their assigned
responsibilities, the risks of malicious actions and unauthorized disclosure of taxpayer data are
increased.

Recommendation
Recommendation 5: The Chief Technology Officer should instruct the ACS Applications
Development office to create call site procedures and guidelines to clarify the capabilities of each
user profile at the RACF® and ACS application levels. The procedures and guidelines should be
incorporated into call site training and emphasize the IRS requirement to ensure users are given
only those access privileges needed to perform assigned duties.
       Management’s Response: The IRS disagreed with this recommendation as written
       and stated that the Chief Technology Officer does not have the authority to direct the
       actions of the business units and, likewise, the heads of the business units do not have the
       authority to direct the actions of the Chief Technology Officer. However, the Chief
       Technology Officer agreed to work with the Director, Filing and Payment Compliance,
       Small Business/Self-Employed Division, to create call site procedures and guidelines to
       clarify the capabilities of each user profile at the RACF® and ACS application levels.
       The Chief Technology Officer will provide the required user profile information and the
       Director, Filing and Payment Compliance, will ensure the user profile information is
       included in the appropriate call site training.
       Office of Audit Comment: We concur with the IRS’ alternative action to create call
       site procedures to clarify the capabilities of each user profile at the RACF® and ACS
       application levels and to ensure the user profile information is included in the appropriate
       call site training.


                                                                                             Page 8
                            Additional Security Controls Are Needed to
                            Protect the Automated Collection System



ACS managers did not document their approval of employees’ elevated RACF®
access privileges in the OL5081 system
ACS managers are required to document their approval of employees’ elevated access privileges
in the special instructions section of the OL5081 system. Without documentation of access
privileges, accountability for granting access cannot be readily determined and the risk of
employees gaining more access than needed is increased.
ACS managers did not document in the OL5081 system their approval of elevated RACF®
privileges for 46 of the 109 ACS users in our sample that had elevated access privileges. The
managers informed us that these 46 employees needed the elevated privileges, but the managers
did not take the necessary actions to approve the privileges in the OL5081 system.
   •   28 employees had a hardcopy access request that was converted into electronic format
       when the OL5081 system was implemented in July 2002. However, after the hardcopy
       documents were converted to the OL5081 system, managers did not carry out their
       responsibility to ensure their approval of the employee’s elevated privileges was also
       documented.
   •   16 employees without a manager approval in the OL5081 system had no document trail
       for us to determine how they received elevated privileges. We believe managers
       bypassed the OL5081 system and used unofficial methods to request higher access
       privileges for their employees. Since the managers do not have the ability to actually
       grant the privileges on the RACF®, we believe the RACF® administrators granted the
       elevated access without requiring proper OL5081 authorization from the managers.
   •   2 employees were temporarily authorized by their managers to have a security
       representative profile for a 120-day detail. However, when the detail ended, the
       managers did not revoke the privileges. The managers informed us that the employees
       are currently approved to have the elevated privileges, but the managers did not use the
       OL5081 system to document their approval.
The lack of control increases the risk of malicious actions on the ACS and unauthorized
disclosure of taxpayer data.

Recommendation
Recommendation 6: The Commissioners, Small Business/Self-Employed and Wage and
Investment Divisions, should instruct all ACS managers to immediately review the OL5081
system for all of their employees that need elevated RACF® privileges to ensure the manager’s
approval is documented in the employees’ OL5081 profile.
       Management’s Response: The IRS agreed with this recommendation. The Wage
       and Investment and the Small Business/Self-Employed Divisions will direct the call sites

                                                                                          Page 9
                                Additional Security Controls Are Needed to
                                Protect the Automated Collection System



        to document managerial approval on all elevated RACF® privileges as reflected on the
        OL5081 system. In addition, both operating divisions have included this security issue in
        their Fiscal Year 2010 Operational Review Plans.

Audit Trail Controls for the Automated Collection System Were Not
Operating Effectively

The ACS was not capturing the required auditable events
IRS procedures require that computer systems be configured to create audit trails to identify
inappropriate and suspicious activity on the system. The ACS mainframe database uses Native
DB2 6 auditing to track the activities of database administrator accounts. However, Native DB2
auditing of the ACS database is not logging all required events that would allow IRS security
officials to detect suspicious activities. For example, database administrator access to taxpayer
data in the ACS database is rarely logged. We found that 87 percent of the ACS database tables
did not have auditing enabled to track database administrators’ accesses to taxpayer data.
The IRS informed us that enabling the required auditing would negatively affect system
performance. However, when these required auditing controls are not implemented, the risk of
not detecting suspicious activities, including unauthorized access to taxpayer data and misuse by
privileged users, increases.

Recommendation
Recommendations will be provided in the audit report for the Review of Enterprise Audit Trails
Management (Treasury Inspector General for Tax Administration Audit #200820003).

ACS audit trails were not adequately protected from unauthorized modification
IRS procedures require that an annual review of user accounts and profiles shall be performed to
ensure compliance with the principle of least privilege. Access to audit trail files should be
limited to only those users that need some level of access to perform their duties.
We found 61 employees have ALTER access to the ACS application audit trail. However, our
initial testing found that several of these employees did not need this elevated access privilege.
The excessive privilege was given to the employees because the RACF® group permissions are
too broad. The group permission granted access to not only the ACS application audit trail but to
other datasets as well. Employees who needed access to the other datasets did not need ALTER
access to the ACS application audit trail.


6
 Native DB2 auditing is part of the IBM database management system that IBM developed for its mainframe
computer system.
                                                                                                     Page 10
                            Additional Security Controls Are Needed to
                            Protect the Automated Collection System



The RACF® security administrator agreed to review the access privileges of all 61 employees
and eliminate the unneeded employee access by creating a specific group profile.
Users with the ALTER access authority could create, modify, or delete the audit trails either
accidently or intentionally to conceal unauthorized activity, thereby compromising the integrity
of the audit trail. Consequently, unauthorized access to the system could occur without
detection.
Management Actions: Prior to the completion of our fieldwork, IRS officials reported they took
corrective actions to eliminate the unneeded access to the ACS audit trails. The IRS reported
that current ALTER access is now limited to only three users that need this access privilege to
perform their assigned duties.

Basic Configuration Management Practices Have Not Been
Implemented to Protect the Automated Collection System
To manage the effects of changes in configurations on the ACS, the IRS must implement basic
configuration management controls. Configuration management includes the management of
security features and assurances through the control of changes made to hardware, software, and
documentation throughout the life cycle of the system. All configuration management activities
fall within the following four primary functions.
   •   Identification – Identifying those items whose configuration needs to be controlled,
       usually consisting of hardware, software, and documentation. These key items are
       referred to as configuration items.
   •   Change Control – Establishing procedures for proposing or requesting changes to the
       configuration items. Change control procedures include evaluating the changes for
       desirability, obtaining authorization for changes, publishing and tracking changes, and
       implementing changes. This function also identifies those persons and organizations that
       have authority to make the changes, and those that make up the configuration control
       boards.
   •   Status Accounting – Maintaining formal records of established configurations and
       making regular reports of configuration status.
   •   Auditing – Performing regular evaluation of the configuration, where the physical and
       functional configuration is compared to the documented configuration.
The IRS has developed a number of required configuration management policies, procedures,
and guidance and established configuration control boards. In addition, it uses an automated
scanner on a monthly basis to evaluate the ACSWeb server configurations. However, basic
configuration management controls have not been implemented. Specifically, the IRS did not:


                                                                                          Page 11
                                Additional Security Controls Are Needed to
                                Protect the Automated Collection System



    •   Develop an overall Configuration Management Plan for the ACS.
    •   Document and maintain a complete accurate inventory of the ACS hardware, software,
        and document configuration items.
    •   Properly document, test, and authorize changes to ACSWeb software configuration
        items.
    •   Timely correct security vulnerabilities on the ACSWeb servers.

The IRS did not develop an overall Configuration Management Plan for the ACS
Configuration management begins with planning. IRS procedures require information system
developers to create and implement a written configuration management plan. Guidance for
creating the plan is provided by the National Institute for Standards and Technology, 7 which
recommends that the plan: 1) address roles, responsibilities, and configuration management
processes and procedures; 2) define when in the system development life cycle the configuration
items are placed under configuration management; 3) define the means for uniquely identifying
configuration items; and 4) define the process for managing the configuration items.
The IRS has not completed a configuration management plan for the ACS. IRS officials
informed us that the plan has not been completed because the IRS must first develop its higher
level configuration management plans that lay the foundation of guidance, policies, and
procedures that all organizations should follow to develop system-specific plans. However, the
IRS has not established completion dates for these high level plans.
The lack of an ACS configuration management plan has prevented the IRS from appointing a
configuration manager to control configuration management activities and serve as the focal
point for ACS configuration management. As a result, key ACS hardware, software, and
documentation have not been identified and documented in a configuration management plan.
The IRS cannot effectively establish and maintain the integrity of the ACS configuration items
and associated artifacts without this key plan. In addition, the IRS cannot adequately manage the
security of the system and has limited assurance that changes to hardware, software, and
document configuration items are being properly monitored.

Recommendations
Many of the configuration management issues we identified for the ACS should be addressed by
the IRS at an enterprise level. We plan to conduct an enterprise configuration management
review in Fiscal Year 2010 and will likely address many of the issues we identified for the ACS.


7
 National Institute of Standards and Technology Special Publication 800-53, Recommended Security Controls for
Federal Information Systems and Organizations, Revision 3.
                                                                                                      Page 12
                             Additional Security Controls Are Needed to
                             Protect the Automated Collection System



As such, we limited our recommendations in this report to the corrective actions that we believe
the IRS should take immediately to improve configuration management for the ACS.
Recommendation 7: The Chief Technology Officer should set completion dates and
prioritize the work needed to complete the high level and ACS configuration management plans.
       Management’s Response: The IRS agreed with this recommendation. The
       Applications Development Compliance Domain will complete a revised project level
       Configuration Management Plan.
Recommendation 8: The Chief Technology Officer should appoint an ACS configuration
manager to oversee key ACS configuration management activities during the development of the
IRS high level configuration management plans.
       Management’s Response: The IRS disagreed with this recommendation and stated
       that the Applications Development ACS team is aligning with current configuration
       management procedures to implement corrective actions related to software and
       documentation repositories, transmittal procedures, and version control.
       Office of Audit Comment: We continue to believe the IRS should appoint an ACS
       configuration manager to strengthen the oversight of key ACS configuration management
       activities. The IRS decision to not appoint an ACS configuration manager could prevent
       the IRS from addressing the weaknesses we reported. However, we believe the
       corrective actions to the other 11 recommendations will sufficiently mitigate this
       particular weakness. As such, no further action is required at this time.

The IRS has not documented and maintained a complete accurate inventory of
the ACS hardware, software, and document configuration items
As we stated earlier in this report, one of the functions of configuration management is to
identify the key configuration items that need to be controlled. These items usually consist of
hardware, software, and documentation. The identification process must be performed in
accordance with project identification requirements that include the use of unique identifiers to
allow the configuration items to be easily tracked and monitored. This process is the initial step
in establishing the final baseline configuration for all configuration items and systems.
After identifying the key configuration items and assigning unique identifiers, the IRS must
develop, document, and maintain an inventory of the system components that 1) accurately
reflects the system, 2) is at the level of detail deemed necessary for tracking and reporting, and
3) includes information necessary to achieve effective property accountability.
We found the IRS has not documented and maintained the key ACS hardware, software, and
documentation.



                                                                                            Page 13
                            Additional Security Controls Are Needed to
                            Protect the Automated Collection System



The ACS hardware is not adequately documented and maintained
The information needed to identify, monitor, and track ACS hardware configuration items is not
adequately documented and maintained. The IRS’ official computer asset inventory system, the
Information Technology Assets Management System, does not include required monitoring and
tracking data, such as the network internet protocol address, function, interconnections, and
system/component owners and project name. To locate ACS hardware in the Information
Technology Assets Management System, IRS employees must find the identifying information
from other IRS offices. Also, the IRS’ inventory system does not allow employees to query the
inventory system by a project or computer system’s name. During our audit, we had to provide
IRS employees the ACS hardware barcodes or serial numbers to enable the employees to query
the inventory system and obtain a list of the ACSWeb servers. The user information for the
servers was recorded in the inventory system as “Shared ITS” and the contact name for seven of
the servers was recorded as “Shared, ITS.”
Other issues identified in our inventory verification of the ACSWeb servers included the
following discrepancies.
   •   The IRS provided us with multiple ACSWeb server inventory lists, each with incorrect
       information.
   •   Two of 10 ACSWeb servers in the Tennessee Computing Center had incorrect serial
       numbers recorded in the Information Technology Assets Management System.
   •   The Information Technology Assets Management System incorrectly reported
       five ACSWeb servers as “in use.” However, the servers were not being used.
The IRS has not implemented adequate inventory policies and procedures. Although the IRS is
in the process of updating inventory guidance to educate all employees on their responsibilities
for inventory management, the inventory guidance has not been finalized. In addition, the
Modernization and Information Technology Services organization’s Enterprise Operations
organization indicated that the inventory validation is inadequate because the employees who
perform the inventory validation only scan the barcodes that are affixed to the hardware items.
The employees do not verify that the required identifying information for each hardware item is
properly recorded in the Information Technology Assets Management System.
Key ACS software configuration items are not adequately maintained
The IRS uses the ClearCase® system to safeguard and control changes to critical ACS software.
However, the IRS could not provide a list of key ACS software items under configuration control
in the ClearCase® system. The ACS Applications Development office stated it could take
several days to locate all the service packs, service files, custom files, software, and other ACS
application software under configuration control in the ClearCase® system. We believe the
inability to readily locate and provide ACS software configuration items stored in the
ClearCase® system is due to the manner in which the items are labeled and stored. The key
                                                                                           Page 14
                             Additional Security Controls Are Needed to
                             Protect the Automated Collection System



software items should be identified, labeled, and stored in the ClearCase® system to facilitate
efficient configuration management activities.
Some key ACS documentation is not adequately maintained
Key ACS documentation should be maintained in the DocIt system, which is the IRS’ enterprise
web-based electronic document management system used to safeguard and control changes to
critical project documentation. However, the DocIt system did not contain all key ACS
documents, such as Enterprise Life Cycle documents and configuration management documents.
Many key documents are stored on the IRS local area network fileservers. The Applications
Development office is using spreadsheets to track some critical documents. However, the
spreadsheets showed numerous notes questioning whether documents are obsolete. Some of the
key ACS documents are maintained on the local area network because the ACS Applications
Development office is waiting for guidance from the Applications Development Division
Coordinator.
When key hardware, software, and document configuration items are not identified, documented,
and maintained, changes to those configuration items are difficult to track. In addition, when an
accurate inventory of system components is not adequately maintained, the ability to detect the
addition of unauthorized components or devices is affected.

Recommendations
Recommendation 9: Subsequent to the appointment of the new ACS configuration manager,
the Chief Technology Officer should direct the ACS configuration manager to manage and
protect critical system documentation from unauthorized changes by storing all critical ACS
system documentation in the DocIt system.
       Management’s Response: The IRS agreed with moving the ACS application
       systems documentation under DocIt for configuration management purposes.
Recommendation 10: Subsequent to the appointment of the new ACS configuration
manager, the Chief Technology Officer should direct the ACS configuration manager to identify
the key software configuration items, assign unique identifiers, and maintain the items in the
ClearCase® system to facilitate efficient tracking, monitoring, and other configuration
management activities.
       Management’s Response: The IRS agreed with ensuring that all ACS software
       configuration items are tracked in the appropriate configuration management tool.

Changes to ACSWeb configuration items are not properly evaluated, tested, and
authorized
All changes to the ACS are required to be evaluated, tested, and approved. A formal change
request document should be prepared and submitted to the appropriate change configuration
                                                                                           Page 15
                             Additional Security Controls Are Needed to
                             Protect the Automated Collection System



control board prior to the change being made to the system. After the configuration control
board reviews and approves the change, a transmittal is sent to a system administrator requesting
the change to be made.
We found the Server, Middleware, Test Systems Infrastructure office and the ACS Applications
Development office sent a total of 23 transmittals to the system administrators from January to
July 2009 requesting changes to the ACSWeb environment. A change request should have been
prepared and submitted to the configuration control board for each of these 23 changes.
However, only three change requests were prepared.
The IRS did not follow its own change management procedures. IRS officials who requested
changes to the ACSWeb operating system and applications believed a change request document
was not warranted for changes they considered to be routine. The IRS defined routine changes
as those that would not cause a work stoppage or similar problem. In addition, we found that
transmittals are often used to make changes to the system without going through the change
request process. Transmittals that do not go through the change request process are not subjected
to rigorous review and approval standards, and the IRS does not have adequate assurance that the
changes will not affect the system’s integrity, security, and functionality.
Changes to the ACS that are not properly evaluated, tested, and approved could circumvent
security controls and undermine the reliability of the system.

Recommendation
Recommendation 11: The Chief Technology Officer should ensure the required change
management procedures are followed for all changes to the ACSWeb.
       Management’s Response: The IRS agreed with this recommendation. The
       Applications Development Compliance Domain will follow accepted change
       management procedures outlined in the ACS Configuration Management Plan.

Security vulnerabilities on the ACSWeb servers were not timely corrected
To maintain the security of the ACS, the IRS runs UNIX Policy Checker scans on the
15 ACSWeb servers each month to identify vulnerabilities that could be exploited by malicious
users. A transmittal from the Server, Middleware, Test Systems Infrastructure office to the
system administrator is required before the system administrator can correct some of the
vulnerabilities. However, system administrators are permitted to correct some of the
vulnerabilities without a transmittal.
The IRS is not timely addressing high- and medium-risk system vulnerabilities that it identifies
on the ACSWeb servers. The IRS UNIX Policy Checker scans that the IRS ran on the servers
from January through May 2009 reported that some high- and medium-risk vulnerabilities
remained on ACSWeb servers for 2 to 5 months before system administrators took corrective

                                                                                          Page 16
                             Additional Security Controls Are Needed to
                             Protect the Automated Collection System



actions. For example, 1 high-risk password vulnerability remained on the same 9 servers for
3 consecutive months, and the same 2 high-risk password vulnerabilities remained on all
15 servers for a minimum of 2 consecutive months. An average of 8 medium-risk vulnerabilities
remained on the same four servers for 5 consecutive months.
Limited staffing resources may have contributed to the IRS not timely correcting the security
vulnerabilities. The system administrators responsible for maintaining the ACSWeb servers are
responsible for maintaining approximately 200 servers, and their work is affected by other
management priorities, such as keeping the systems operating.
Another reason why the vulnerabilities are not timely corrected is because the IRS has not
established clear criteria and deadlines for correcting vulnerabilities. IRS procedures state that
vulnerabilities should be “promptly” corrected, but no time periods are provided in the
procedures.
The risks to the ACS are increased when vulnerabilities are not timely corrected. We believe
managing vulnerabilities of systems will reduce the potential for exploitation by insider and
outside attackers and may involve less time and effort than responding after an exploit has
occurred.

Recommendation
Recommendation 12: The Chief Technology Officer should revise IRS procedures to
include specific criteria and deadlines for addressing vulnerabilities found on servers and
compare the results of monthly vulnerability scans to verify that vulnerabilities are timely
addressed.
       Management’s Response: The IRS stated that, as of March 11, 2010, two activities
       are in place to address this recommendation. First, monthly configuration scans are
       performed on servers, which meet the Department of the Treasury’s enhanced controls
       standards. These scans are the basis for an enterprise-wide get well plan that addresses
       noncompliant systems agency-wide. Computer system owners and their staffs are
       currently being engaged on remediation efforts. Second, the security monitoring staff in
       the IRS’ Enterprise Operations organization has established a risk finding group to
       address the high risks associated with UNIX and Windows server platforms. Bi-weekly
       calls are held to discuss the corrective actions associated with the high risks identified.
       The security monitoring staff monitors and tracks the high risks and provides remediation
       status. The IRS stated these efforts have resulted in a 50 percent decrease in open high-
       risk findings from July to November 2009. The IRS will monitor the continuing
       effectiveness of these actions before revising or instituting new procedures or criteria.




                                                                                            Page 17
                                    Additional Security Controls Are Needed to
                                    Protect the Automated Collection System



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has implemented access,
audit trail, and configuration management controls to secure the ACS. To accomplish this
objective, we:
I.         Determined whether key access controls are in place and operating effectively to limit
           access to only authorized users of the ACS by reviewing user access control account lists;
           interviewing ACS managers, security representatives, and systems administrators; and
           observing the access controls on users’ workstations.
           A. Determined whether the IRS properly managed ACS user accounts. To test ACS end
              user accounts, we obtained the control account list from the RACF®1 and selected a
              random sample of 102 accounts. We initially selected a random sample because we
              wanted each account to have an equal chance of being selected, and we wanted our
              sample to represent the population of ACS user accounts. We used the following
              sample plan:

                                          Operators    Managers   Security Representatives
                 Population Size               4,503     219                94
                 Confidence Level              95%       90%               90%
                 Error Rate                     5%       2%                 1%
                 Sample Size                    72       20                 10

               After testing the 102 accounts, we sorted the control account list by call site and
               determined that a large number of employees in the Jacksonville and Philadelphia call
               sites had elevated privileges. Therefore, we tested the 66 managers and 13 security
               representatives in these 2 sites. Our total sample was 181 (102 + 66 + 13) accounts.
               The total number of users in our sample with elevated privileges was 109 (30 from
               the initial sample and 79 from the Jacksonville and Philadelphia call sites). We also
               tested all 20 of the system administrators’ user accounts on the ACSWeb servers
               operating in the Tennessee Computing Center. We determined whether each user
               account was approved by the employee’s manager in the OL5081 system and
               recertified within the last 12 months, whether any other account reviews were


1
    See Appendix IV for a glossary of terms.
                                                                                             Page 18
                                Additional Security Controls Are Needed to
                                Protect the Automated Collection System



            performed, and whether the appropriate security officials were notified when access
            was no longer needed.
        B. Determined whether generic, default, duplicate, shared, or temporary accounts exist
           on the Tier II ACSWeb servers by reviewing the control lists of all user accounts on
           the servers.
        C. Determined whether inactive accounts were disabled after 45 calendar days and
           deleted after 90 calendar days by reviewing the most current computer-generated
           access control list.
        D. Determined whether user permissions were restricted based on the principle of least
           privilege by comparing the users’ actual RACF privileges to those authorized on the
           OL5081 system.
        E. Determined whether duties were adequately separated to limit conflicts of interest
           among key personnel by reviewing user access control lists and interviewing security
           personnel.
        F. Interviewed system administrators to determine whether the system automatically
           locks out a user after three unsuccessful logon attempts.
        G. Determined whether a session lock control has been implemented to prevent users
           from gaining access to unauthorized information when a workstation is left
           unattended after a designated time period. We had a user and a system administrator
           demonstrate this control to determine that it was operating.
        H. Determined whether remote and wireless access to the ACS is allowed by
           interviewing system administrators and reviewing the System Security Plan.
        I. Determined whether the ACS and ACSWeb display the appropriate warning banner
           to warn all persons attempting to gain access to the system that the system and its
           information are for authorized use only. We observed this control on users’
           workstations.
II.     Determined whether the IRS is capturing the required audit events in the audit trails and
        protecting the audit trails from unauthorized modification by coordinating with the
        Washington D.C. audit group performing a concurrent review 2 of enterprise audit trail
        controls.
III.    Evaluated the configuration management controls over the ACS by interviewing key IRS
        information technology officials; reviewing applicable Internal Revenue Manual and Law


2
 Review of Enterprise Audit Trails Management (Treasury Inspector General for Tax Administration Audit
#200920003).
                                                                                                     Page 19
                             Additional Security Controls Are Needed to
                             Protect the Automated Collection System



       Enforcement Manual procedures; and reviewing hardware, software, and documentation
       configuration items.
       A. Evaluated the ACS Configuration Management Plan to determine whether the
          hardware, software, and documentation items that require configuration control are
          defined and that the plan addresses roles, responsibilities, and configuration
          management procedures.
       B. Determined whether baseline configurations have been documented and maintained
          for each of the hardware and software components.
       C. Determined whether changes to configuration items are documented and authorized
          before changes are made.
       D. Determined whether physical and logical access restrictions are defined and
          implemented to control changes to the configuration items, and whether access
          records to the computer room and software libraries are maintained.
       E. Determined whether configuration changes are continuously monitored, including
          modifications and upgrades, to verify the changes were applied correctly.
       F. Determined whether the IRS reviews ACS hardware and software to identify and
          eliminate unnecessary functions, ports, protocols, and/or services.
       G. Determined whether an inventory of ACS components is documented and maintained
          that accurately reflects the system.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: ACS access, audit trail, and configuration
management internal controls. We evaluated these internal controls by interviewing
management, reviewing ACS users’ accounts and system privileges, and reviewing supporting
documentation.




                                                                                           Page 20
                           Additional Security Controls Are Needed to
                           Protect the Automated Collection System



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Allen Gray, Audit Manager
Richard Borst, Senior Auditor
Cari Fogle, Senior Auditor
George Franklin, Senior Auditor
Bret Hunter, Senior Auditor
Thomas Nacinovich, Senior Auditor
Esther Wilson, Senior Auditor




                                                                                     Page 21
                         Additional Security Controls Are Needed to
                         Protect the Automated Collection System



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Program Oversight OS:CIO:SM:PO




                                                                                Page 22
                           Additional Security Controls Are Needed to
                           Protect the Automated Collection System



                                                                               Appendix IV

                              Glossary of Terms

             Term                                         Definition
ALTER (Access Authority)       Allows users to read, update, move, rename, and delete audit
                               log data.
Audit Trail or Log             A record showing who has accessed a system and what
                               operations the user has performed during a given period.
Balance Due Account            An unpaid taxpayer account. Also referred to as a Taxpayer
                               Delinquent Account.
Baseline                       A specified set of documents, software, and other items
                               defined as final (or point-in-time) products for a project.
Change Request                 The medium for requesting approval to change a baselined
                               product or other controlled item.
ClearCase®                     Rational ClearCase® was developed by the IBM corporation.
                               This product provides version control and software
                               configuration management.
Configuration Control Board    A group of people responsible for evaluating and approving
                               or disapproving proposed changes to configuration items and
                               for ensuring implementation of approved changes.
Configuration Item             Any component of the Information Technology infrastructure
                               that falls under the control of the configuration management
                               process.
Configuration Management       Involves establishing proper control over approved project
                               documentation, hardware, and software and assuring changes
                               are authorized, controlled, and tracked.
Configuration Management       Establishes and documents the requirements, standards,
Plan                           practices, and procedures for configuration management. The
                               process of completing the configuration management plan
                               includes defining baselines and establishing the labeling
                               scheme for configuration items.



                                                                                        Page 23
                            Additional Security Controls Are Needed to
                            Protect the Automated Collection System




Enterprise Life Cycle           Establishes a set of repeatable processes and a system of
                                reviews, checkpoints, and milestones that reduce the risks of
                                system development and ensures alignment with the overall
                                business strategy.
Information Technology          The official IRS computer equipment database used to record
Assets Management System        all computer inventories.
Integrated Data Retrieval       An IRS computer system capable of retrieving or updating
System                          stored information. This system works in conjunction with a
                                taxpayer’s account records.
Nonfiler Case                   An unfiled tax return for a taxpayer. Also referred to as a
                                Taxpayer Delinquency Investigation.
Online 5081 (OL5081)            Virtually every customer within the IRS must utilize the IRS
                                Form 5081, Information System User Registration/Change
                                Request, to request access to information systems and
                                applications. The OL5081 system replaces the paper Form
                                5081 with an automated, standard process. It provides
                                automated submission, approval, recertification, and filing of
                                the Form 5081 on an enterprise-wide basis.
Patch                           A quick repair job for a piece of programming. Sometimes
                                called a “fix.”
Query Management Facility       A tool for performing queries on the mainframe database to
                                retrieve large amounts of taxpayer collection data.
Resource Access Control         A security software sold by the IBM Corporation to manage
Facility                        access controls and auditing for the IBM mainframe computer
                                systems.
Small Business/Self-Employed Serves fully and partially self-employed individuals and small
Division                     businesses. The Division also has responsibility for taxpayers
                             filing estate and gift, employment, excise, and international
                             tax returns.
System Development Life         A conceptual model used in project management that
Cycle                           describes the stages involved in an information systems
                                development project, from an initial feasibility study through
                                maintenance of the completed application.




                                                                                        Page 24
                          Additional Security Controls Are Needed to
                          Protect the Automated Collection System




Transmittal                    For this audit report, the purpose of a transmittal is to either
                               document changes that the Tier II Support Services has made
                               to the operating system or database (whether it is a
                               configuration change or a patch) or to initiate action by field
                               personnel (usually a systems administrator) for applying
                               patches, making required configuration changes, and
                               installing software.
UNIX Policy Checker            An application that validates the operating system security
                               configuration of Solaris computers to IRS policy.
Vulnerability                  In computer security, a security risk or weakness which
                               allows an attacker to reduce a system’s Information
                               Assurance.
Wage and Investment Division   Serves taxpayers whose only income is derived from wages
                               and investments.
Web or Application Services    Services (usually including some combination of
                               programming and data, but possibly including human
                               resources as well) that are made available from a business’
                               web server for web users or other web-connected programs.




                                                                                        Page 25
                           Additional Security Controls Are Needed to
                           Protect the Automated Collection System



                                                                             Appendix V

                  Process to Obtain Access to the
                   Automated Collection System

IRS employees must be granted two levels of access to use the ACS. Access must be granted on
the RACF® and on the ACS application.




                                                                                     Page 26
          Additional Security Controls Are Needed to
          Protect the Automated Collection System



                                                  Appendix VI

Management’s Response to the Draft Report




                                                       Page 27
Additional Security Controls Are Needed to
Protect the Automated Collection System




                                             Page 28
Additional Security Controls Are Needed to
Protect the Automated Collection System




                                             Page 29
Additional Security Controls Are Needed to
Protect the Automated Collection System




                                             Page 30
Additional Security Controls Are Needed to
Protect the Automated Collection System




                                             Page 31
Additional Security Controls Are Needed to
Protect the Automated Collection System




                                             Page 32
Additional Security Controls Are Needed to
Protect the Automated Collection System




                                             Page 33
